No. 20-1163

 

In THE
Supreme Court of the United States

GLOUCESTER COUNTY SCHOOL BOARD, PETITIONER

ve

GAVIN GRIMM

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,845 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 7, 2021.

 

Wilson-Epes Printing Co., Inc.
